                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-02067-253




    Combined Assessment Program 

             Review of the 

     Fayetteville VA Medical Center 

      Fayetteville, North Carolina 





August 19, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Fayetteville VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                               CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   8

  Coordination of Care ...............................................................................................             9

  Acute Ischemic Stroke Care ...................................................................................                  10

  CLC Resident Independence and Dignity ...............................................................                           12

  MRI Safety ..............................................................................................................       14

  Construction Safety.................................................................................................            16


     Appendixes
     A. Facility Profile ....................................................................................................     18

     B. Strategic Analytics for Improvement and Learning ............................................                             19

     C. VISN Director Comments ..................................................................................                 22

     D. Facility Director Comments ...............................................................................                23

     E. OIG Contact and Staff Acknowledgments .........................................................                           30

     F. Report Distribution .............................................................................................         31

     G. Endnotes ...........................................................................................................      32





VA OIG Office of Healthcare Inspections
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
June 23, 2014.

Review Results:          The review covered eight activities.                      We made no
recommendations in the following two activities:

 Medication Management

 Coordination of Care

The facility’s reported accomplishment was the relocation of the inpatient psychiatric
unit to a newly renovated space called the Bright Beginnings Recovery Unit. The unit
uses a multidisciplinary team approach to provide psychosocial groups focusing on
recovery.

Recommendations: We made recommendations in the following six activities:
Quality Management: Require that the Critical Care Committee reviews each code
episode. Ensure the Surgical Work Group continues to meet monthly, documents its
review of required performance data elements and National Surgical Office reports, and
reviews all surgical deaths with identified problems or opportunities for improvement.
Require that the Blood Usage Review Committee representative from Surgical Service
consistently attends meetings and that the blood/transfusions usage review process
includes the results of proficiency testing and the results of inspections by government
or private (peer) entities.

Environment of Care: Ensure that Environment of Care Committee minutes reflect
discussion of actions taken in response to identified deficiencies and that actions are
tracked to closure. Promptly remove expired medications from patient care areas.

Acute Ischemic Stroke Care: Revise the facility’s stroke policy to address data
gathering for analysis and improvement. Complete and document National Institutes of
Health stroke scales for each stroke patient. Post stroke guidelines on the critical care
unit and the acute inpatient unit. Screen patients for difficulty swallowing prior to oral
intake. Provide printed stroke education to patients upon discharge.

Community Living Center Resident Independence and Dignity:            Complete and
document restorative nursing services according to clinician orders and/or residents’
care plans.

Magnetic Resonance Imaging Safety: Ensure that secondary patient safety screenings
are completed immediately prior to magnetic resonance imaging and are signed by the
patient, family member, or caregiver. Document resolution in patients’ electronic health


VA OIG Office of Healthcare Inspections                                                              i
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


records of all identified magnetic resonance imaging contraindications prior to the scan.
Ensure all designated Level 1 ancillary staff receive annual level-specific magnetic
resonance imaging safety training.

Construction Safety: Include in inspection documentation the time of the inspection, the
team members present, and the time when corrective actions occurred. Ensure that
Construction Safety Committee minutes contain documentation of unsafe conditions
identified during inspections and follow-up actions in response to those conditions and
that minutes track actions to completion.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 22–29, for the full
text of the Directors comments.) We consider recommendation 9 closed. We will follow
up on the planned actions for the open recommendations until they are completed.




                                                            JOHN D. DAIGH, JR., M.D. 

                                                           Assistant Inspector General for 

                                                              Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                              ii
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following eight activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MRI Safety

   	 Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.




VA OIG Office of Healthcare Inspections                                                             1
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


The review covered facility operations for FY 2013 and FY 2014 through July 3, 2014,
and was done in accordance with OIG standard operating procedures for CAP
reviews. We also asked the facility to provide the status on the recommendations we
made in our previous CAP report (Combined Assessment Program Review of the
Fayetteville VA Medical Center, Fayetteville, North Carolina, Report No. 12-03071-53,
December 10, 2012). We made a repeat recommendation related to EOC Committee
minutes.

During this review, we presented crime awareness briefings for 321 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
350 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

MH Treatment Using Recovery Principles
On January 21, 2014, the facility relocated the inpatient psychiatric unit to a newly
renovated space called the Bright Beginnings Recovery Unit. The goal of this unit
is to provide a safe place for veterans to transition from crisis to recovery using the
following 10 key components of recovery: (1) self-direction, (2) individualized and
person-centered, (3) empowerment, (4) holistic, (5) non-linear, (6) strengths-based,
(7) peer support, (8) respect, (9) responsibility, and (10) hope. The unit uses a
multidisciplinary team approach to provide psychosocial groups focusing on recovery,
and there are 10 groups per day. This multidisciplinary team approach has increased
veteran participation in these groups by 50 percent.

Prior to relocating to the new unit, the multidisciplinary team identified the need for
implementation of other therapeutic intervention techniques, such as de-escalation and
communication, as a means to avoid episodes of physical restraints on the unit.
Training and education on adverse outcomes with the use of restraints as well as the
effects on the veterans’ dignity and self-worth was provided. As a result of the
additional training and education, there have been zero restraint episodes since
October 2013.




VA OIG Office of Healthcare Inspections                                                             2
                                           CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                       Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                    3
                                             CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


NM              Areas Reviewed (continued)                                    Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         Twelve months of Critical Care Committee
       met selected requirements:                         meeting minutes reviewed:
        An interdisciplinary committee was                There was no evidence that the committee
          responsible for reviewing episodes of care        reviewed each episode.
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Surgical Work Group did not meet until
       requirements:                                        January 2014. As a result, there was no
        An interdisciplinary committee with                evidence that required monthly and quarterly
          appropriate leadership and clinical               performance data elements, such as local
          membership met monthly to review surgical         performance data and National Surgical
          processes and outcomes.                           Office reports, were reviewed.
        Surgical deaths with identified problems or      Several surgical deaths that occurred from
          opportunities for improvement were              January through June 2013 received final peer
          reviewed.                                       review level II or III:
        Additional data elements were routinely           There was no evidence that these deaths
          reviewed.                                          were reviewed by the Surgical Work Group.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                      4
                                               CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


NM             Areas Reviewed (continued)                                      Findings
 X     The process to review blood/transfusions            Four quarters of Blood Usage Review
       usage met selected requirements:                    Committee meeting minutes reviewed:
        A committee with appropriate clinical              The clinical representative from Surgical
         membership met at least quarterly to review         Service attended only two of four meetings.
         blood/transfusions usage.                          The review process did not include the results
        Additional data elements were routinely             of proficiency testing or the results of
         reviewed.                                           inspections by government or private (peer)
                                                             entities.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that the Critical Care
Committee reviews each code episode.

2. We recommended that the Surgical Work Group continue to meet monthly and document its
review of required performance data elements and National Surgical Office reports.

3. We recommended that processes be strengthened to ensure that all surgical deaths with
identified problems or opportunities for improvement are reviewed by the Surgical Work Group.

4. We recommended that processes be strengthened to ensure that the Blood Usage Review
Committee representative from Surgical Service consistently attends meetings and that the
blood/transfusions usage review process includes the results of proficiency testing and the
results of inspections by government or private (peer) entities.




VA OIG Office of Healthcare Inspections                                                                        5
                                           CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected MH unit 5C, CLC unit 4A, medical/surgical unit 3C, the intensive care unit, the
emergency department, the Indigo Primary Care Clinic, the infusion clinic, SDS, the PACU, and
the eye clinic. Additionally, we reviewed relevant documents, conversed with key employees
and managers, and reviewed 28 employee training records (14 SDS, 9 PACU, and 5 eye clinic).
The table below shows the areas reviewed for this topic. The areas marked as NM did not
meet applicable requirements and needed improvement. Any items that did not apply to this
facility are marked NA.

NM           Areas Reviewed for General EOC                                 Findings
 X     EOC Committee minutes reflected sufficient      Six months of EOC Committee meeting minutes
       detail regarding identified deficiencies,       reviewed:
       corrective actions taken, and tracking of        Minutes did not reflect that actions were
       corrective actions to closure.                     discussed and tracked to closure. This was a
                                                          repeat finding from the previous CAP review.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                  
       Environmental safety requirements were met.
       Infection prevention requirements were met.
 X     Medication safety and security requirements      We found expired medications in three of
       were met.                                         seven patient care areas.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
          Areas Reviewed for SDS and the PACU
       Designated SDS and PACU employees
       received bloodborne pathogens training
       during the past 12 months.
       Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
       Fire safety requirements in SDS and on the
       PACU were met.
       Environmental safety requirements in SDS
       and on the PACU were met.



VA OIG Office of Healthcare Inspections                                                                    6
                                          CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


NM        Areas Reviewed for SDS and the PACU                              Findings
                          (continued)
       SDS medical laser safety requirements were
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
       Medication safety and security requirements
       in SDS and on the PACU were met.
       Auditory privacy requirements in SDS and on
       the PACU were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
       Designated eye clinic employees received        
       laser safety training with the frequency
       required by local policy.
       Environmental safety requirements in the eye
       clinic were met.
       Infection prevention requirements in the eye
       clinic were met.
       Medication safety and security requirements
       in the eye clinic were met.
       Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional       
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

5. We recommended that processes be strengthened to ensure that Environment of Care
Committee minutes reflect discussion of actions taken in response to identified deficiencies and
that actions are tracked to closure.

6. We recommended that processes be strengthened to ensure that expired medications are
promptly removed from patient care areas and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   7
                                            CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 35 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     8
                                            CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 5 patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     9
                                              CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 24 patients who experienced stroke symptoms,
and 10 employee training records (5 emergency department and 5 critical care unit), and we
conversed with key employees. We also conducted onsite inspections of the emergency
department, one critical care unit, and one acute inpatient unit. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                         Findings
 X     The facility’s stroke policy/plan/guideline         The facility’s policy/plan/guideline did not
       addressed all required items.                        address data gathering for analysis and
                                                            improvement.
 X     Clinicians completed the National Institutes of     None of the applicable 18 EHRs contained
       Health stroke scale for each patient within the      documented evidence of completed stroke
       expected timeframe.                                  scales.
 NA    Clinicians provided medication tissue
       plasminogen activator timely to halt the stroke
       and included all required steps, and tissue
       plasminogen activator was in stock or
       available within 15 minutes.
 X     Stroke guidelines were posted in all areas          Stroke guidelines were not posted on the
       where patients may present with stroke               critical care unit or the acute inpatient unit.
       symptoms.
 X     Clinicians screened patients for difficulty         Three of the applicable 16 EHRs did not
       swallowing prior to oral intake of food or           contain documentation that patients were
       medicine.                                            screened for difficulty swallowing prior to oral
                                                            intake.
 X     Clinicians provided printed stroke education to     Fifteen of the applicable 16 EHRs did not
       patients upon discharge.                             contain documentation that stroke education
                                                            was provided to the patient/caregiver.
       The facility provided training to staff involved
       in assessing and treating stroke patients.
       The facility collected and reported required
       data related to stroke care.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

7. We recommended that the facility’s stroke policy be revised to address data gathering for
analysis and improvement and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.


VA OIG Office of Healthcare Inspections                                                                       10
                                          CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


9. We recommended that stroke guidelines be posted on the critical care unit and the acute
inpatient unit.

10. We recommended that processes be strengthened to ensure that clinicians screen patients
for difficulty swallowing prior to oral intake.
11. We recommended that processes be strengthened to ensure that clinicians provide printed
stroke education to patients upon discharge and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  11
                                           CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 13 EHRs of residents (10 residents receiving restorative nursing services and
3 residents not receiving restorative nursing services but candidates for services). We also
observed two residents during two meal periods, reviewed five employee training/competency
records and other relevant documents, and conversed with key employees. The table below
shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                      Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented           In 3 of the 10 applicable EHRs, facility staff
       restorative nursing services, including active     did not complete and document restorative
       and passive range of motion, bed mobility,         nursing services according to clinician orders
       transfer, and walking activities, according to     and/or residents’ care plans.
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.



VA OIG Office of Healthcare Inspections                                                                   12
                                          CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


NM        Areas Reviewed for Assistive Eating                              Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

12. We recommended that processes be strengthened to ensure that staff complete and
document restorative nursing services according to clinician orders and/or residents’ care plans
and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  13
                                           CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 39 employees (30 randomly
selected Level 1 ancillary staff and 9 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 33 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted a
physical inspection of the MRI area. The table below shows the areas reviewed for this topic.
The areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                    Areas Reviewed                                        Findings
       The facility completed an MRI risk
       assessment, there were documented
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
 X     Two patient safety screenings were conducted      Four EHRs (12 percent) did not contain
       prior to MRI, and the secondary patient safety     secondary patient safety screenings prior to
       screening form was signed by the patient,          MRI.
       family member, or caregiver and reviewed and      None of the 29 secondary patient safety
       signed by a Level 2 MRI personnel.                 screening forms were signed by the patient,
                                                          family member, or caregiver prior to MRI.
 X     Any MRI contraindications were noted on the       Six of the applicable seven EHRs did not
       secondary patient safety screening form, and       contain documentation that all identified
       a Level 2 MRI personnel and/or radiologist         contraindications were addressed prior to
       addressed the contraindications and                MRI.
       documented resolution prior to MRI.
 X     Level 1 ancillary staff and Level 2 MRI           Nine Level 1 ancillary staff (30 percent) did
       personnel were designated and received             not receive level-specific annual MRI safety
       level-specific annual MRI safety training.         training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.




VA OIG Office of Healthcare Inspections                                                                   14
                                           CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


NM             Areas Reviewed (continued)                                   Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

13. We recommended that processes be strengthened to ensure that secondary patient safety
screenings are completed immediately prior to magnetic resonance imaging and that
compliance be monitored.

14. We recommended that processes be strengthened to ensure that secondary patient safety
screening forms are signed by the patient, family member, or caregiver and that compliance be
monitored.

15. We recommended that processes be strengthened to ensure that radiologists and/or
Level 2 magnetic resonance imaging personnel document resolution in patients’ electronic
health records of all identified magnetic resonance imaging contraindications prior to the scan
and that compliance be monitored.

16. We recommended that processes be strengthened to ensure that all designated
Level 1 ancillary staff receive annual level-specific magnetic resonance imaging safety training
and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   15
                                             CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.h

We inspected the Ward C Fan Coil Project, 4th Floor. Additionally, we reviewed relevant
documents and 17 training records (7 contractor records and 10 employee records), and we
conversed with key employees and managers. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
 X     Site inspections were conducted by the             Site inspection documentation for 2 quarters
       required multidisciplinary team members at         reviewed:
       the specified frequency and included all            We did not find documented evidence of the
       required elements.                                    time of the inspection, team members
                                                             present, and the time when corrective actions
                                                             occurred.
       Infection Control Committee minutes
       documented infection surveillance activities
       associated with the project(s) and any
       interventions.
 X     Construction Safety Committee minutes              Construction Safety Committee minutes for past
       documented any unsafe conditions found             2 quarters reviewed:
       during inspections and any follow-up actions        Unsafe conditions were not documented in
       and tracked actions to completion.                    two of six inspections.
                                                           Although unsafe conditions were documented
                                                             in four of six inspections, there was no
                                                             evidence of follow-up actions in the minutes.
       Contractors and designated employees
       received required training.




VA OIG Office of Healthcare Inspections                                                                     16
                                          CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


NM             Areas Reviewed (continued)                                  Findings
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendations

17. We recommended that processes be strengthened to ensure that construction site
inspection documentation includes the time of the inspection, the team members present, and
the time when corrective actions occurred.

18. We recommended that processes be strengthened to ensure that Construction Safety
Committee minutes contain documentation of unsafe conditions identified during inspections
and follow-up actions in response to those conditions and that minutes track actions to
completion.




VA OIG Office of Healthcare Inspections                                                                  17
                                           CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC
                                                                                                Appendix A


    Facility Profile (Fayetteville/565) FY 2014 through June 20141
Type of Organization                                                                    Secondary
Complexity Level                                                                        2-Medium complexity
Affiliated/Non-Affiliated                                                               Affiliated
Total Medical Care Budget in Millions                                                   $288.3
Number of:
    Unique Patients                                                                    52,972
    Outpatient Visits                                                                  373,763
    Unique Employees2                                                                  1,250
Type and Number of Operating Beds:
    Hospital                                                                           60
    CLC                                                                                69
    MH                                                                                 NA
Average Daily Census (as of May 2014):
    Hospital                                                                           31
    CLC                                                                                52
    MH                                                                                 NA
Number of Community Based Outpatient Clinics                                            5
Location(s)/Station Number(s)                                                           Jacksonville/565GA
                                                                                        New Hanover/565GC
                                                                                        Hamlet/565GD
                                                                                        Robeson/565GE
                                                                                        Goldsboro/565GF
VISN Number                                                                             6




1
    All data is for FY 2014 through June 2014 except where noted. 

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                   18
                                                                   CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC
                                                                                                                        Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                           19
                                                            CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                    20
                                                                                                      CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


                                                                         Metric Definitions
 Measure                       Definition                                                                                   Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)            A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                      A lower value is better than a higher value
 Best Place to Work            Overall satisfaction with job                                                                A higher value is better than a lower value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                                   A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                         A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                                  A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)               A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                                A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                            A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                       A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                         A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics; FY13 and later)               A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                         A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)            A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics; FY13 and later)     A higher value is better than a lower value
 PSI                           Patient safety indicator (observed to expected ratio)                                        A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                             A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                               A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                      A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                         A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                        A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                    A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                       A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                      A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                          A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                               A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics; FY13 and later)   A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                                   21
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC
                                                                                         Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:       August 6, 2014

          From:        Director, VA Mid-Atlantic Health Care Network (10N6)

       Subject:        CAP Review of the Fayetteville VA Medical Center,
                       Fayetteville, NC

             To:       Director, Atlanta Office of Healthcare Inspections (54AT)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. Thank you for the opportunity to provide a status report on the draft
          findings from the OIG CAP Review of the Fayetteville VA Medical
          Center, Fayetteville, NC.

       2. Attached please find the facility concurrences and responses to the
          findings from the review.

       3. If you have questions or need further information, please contact
          Lisa Shear, QMO, VISN 6, at (919) 856-5541.




VA OIG Office of Healthcare Inspections                                                            22
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC
                                                                                         Appendix D
                                Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:        August 6, 2014

          From:         Director, Fayetteville VA Medical Center (565/00)

       Subject:         CAP Review of the Fayetteville VA Medical Center,
                        Fayetteville, NC

             To:        Director, VA Mid-Atlantic Health Care Network (10N6)

       Fayetteville VA Medical Center concurs with the findings brought forth in
       this report. Specific corrective actions have been provided for the
       recommendations.

       Should you have any questions, please contact Damaris Reyes, Chief,
       Performance Improvement, at 910-822-7091.


        (original signed by:)
       Elizabeth Goolsby




VA OIG Office of Healthcare Inspections                                                            23
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
the Critical Care Committee reviews each code episode.

Concur

Target date for completion: 12/31/14

Facility response: Effective July 24, 2014, the Critical Care Committee minutes reflects
review and discussion of each resuscitative effort event. Oversight of compliance with
these actions will be reported monthly to the Medical Executive Board.

Recommendation 2. We recommended that the Surgical Work Group continue to
meet monthly and document its review of required performance data elements and
National Surgical Office reports.

Concur

Target date for completion: 12/31/14

The Surgical Workgroup has reviewed the national directive and has amended the
agenda to reflect all required elements as standing items for meetings. The minutes will
accurately reflect discussion of these requirements. Oversight of compliance with this
recommendation will be reported monthly to Medical Executive Board.

Recommendation 3. We recommended that processes be strengthened to ensure that
all surgical deaths with identified problems or opportunities for improvement are
reviewed by the Surgical Work Group.

Concur

Target date for completion: 12/31/14

Facility response: All surgical deaths will be reviewed at the monthly Morbidity and
Mortality meeting. Lessons learned will be discussed at the Surgical Work Group
meeting as an opportunity for quality improvement initiative. Oversight of compliance
with this recommendation will be reported monthly to Medical Executive Board.




VA OIG Office of Healthcare Inspections                                                            24
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


Recommendation 4. We recommended that processes be strengthened to ensure that
the Blood Usage Review Committee representative from Surgical Service consistently
attends meetings and that the blood/transfusions usage review process includes the
results of proficiency testing and the results of inspections by government or private
(peer) entities.

Concur

Target date for completion: 12/31/14

Facility response: In order to facilitate attendance of surgical service representatives,
effective June 2014 Blood Utilization Committee meeting times was changed from
2:00 P.M. to 3:30 P.M. The importance of meeting attendance has been communicated
to all members and their respective Service Chiefs. Meeting agenda was modified to
add as standing items the results of proficiency testing and the results of inspections by
government or private (peer) entities.            Oversight of compliance with this
recommendation will be reported monthly to Medical Executive Board.

Recommendation 5. We recommended that processes be strengthened to ensure that
Environment of Care Committee minutes reflect discussion of actions taken in response
to identified deficiencies and that actions are tracked to closure.

Concur

Target date for completion: 12/31/14

Facility response: Revision of the Fayetteville Environment of Care minutes was
completed on July 28, 2014. Minutes now include sufficient detail and capture the
discussion by the committee and tracks progress through to completion for open items.
The Environment of Care chair is using a couple of standardized tools, one of them “for
open action items” to ensure tracking until closed and another to assist with ensuring
“quality of minutes.” Additionally, the Environment of Care chair has enlisted an
independent review of the next 3 months of Environment of Care minutes to be
completed by the VISN Quality Management Officer. Corrections and changes will be
made as feedback is received.

Recommendation 6. We recommended that processes be strengthened to ensure that
expired medications are promptly removed from patient care areas and that compliance
be monitored.

Concur

Target date for completion: 12/31/14

Facility response: Staff education concerning processes related to timely removal of all
medications will be completed by 8/15/2014. Adherence to this process will be
validated during weekly inspections in patient care areas beginning 8/18/14. Oversight



VA OIG Office of Healthcare Inspections                                                            25
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


of compliance with this process will be reported monthly to the Pharmacy, Therapeutics 

and Nutrition Committee. 


Recommendation 7. We recommended that the facility’s stroke policy be revised to

address data gathering for analysis and improvement and that compliance be 

monitored. 


Concur

Target date for completion: 8/31/14

Facility response: The facility’s stroke policy has been revised to include the process by
which data is gathered and analyzed. It is currently awaiting concurrence.

Recommendation 8. We recommended that processes be strengthened to ensure that
clinicians complete and document National Institutes of Health stroke scales for each
stroke patient and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: Appropriate staff have received education related to the National
Institutes of Health Stroke Scale template and documentation requirements for all
patients with stroke symptoms. Oversight of compliance with this process will be
reported monthly to Medical Executive Board.

Recommendation 9. We recommended that stroke guidelines be posted on the critical
care unit and the acute inpatient unit.

Concur

Target date for completion: 6/24/14

Facility response: Stroke guidelines and National Institutes of Health Stroke Scale were
posted in the Critical Care and Acute Inpatient Unit on 6/24/2014.

Recommendation 10. We recommended that processes be strengthened to ensure
that clinicians screen patients for difficulty swallowing prior to oral intake.

Concur

Target date for completion: 12/31/14

Facility response: Appropriate staff were provided education on the need to complete a
patient screen for difficulty swallowing prior to oral intake. A template to document
these results was developed and is currently in use. Oversight of compliance with this
process will be reported monthly to the Medical Executive Board.



VA OIG Office of Healthcare Inspections                                                            26
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


Recommendation 11. We recommended that processes be strengthened to ensure
that clinicians provide printed stroke education to patients upon discharge and that
compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: An Acute Ischemic Stroke patient education brochure has been
created. This information will be provided to patients upon discharge. Compliance with
this process will be reported monthly to the Medical Executive Board.

Recommendation 12. We recommended that processes be strengthened to ensure
that staff complete and document restorative nursing services according to clinician
orders and/or residents’ care plans and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: All licensed staff was educated on the requirements for completion
and documentation of restorative nursing services according to clinician orders and/or
residents’ care plans. All restorative care plans will be reviewed monthly and oversight
reported to the Nurse Executive Council.

Recommendation 13. We recommended that processes be strengthened to ensure
that secondary patient safety screenings are completed immediately prior to magnetic
resonance imaging and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: The magnetic resonance imaging technologists were retrained
July 1, 2014 on the importance of completing the second level safety screening for all
magnetic resonance imaging patients. The Chief Technologist in Imaging Service is
performing 100% verification that all questionnaires are being fully completed and are
accurate. The results of this verification process will be reported monthly at the Medical
Executive Board meeting.

Recommendation 14. We recommended that processes be strengthened to ensure
that secondary patient safety screening forms are signed by the patient, family member,
or caregiver and that compliance be monitored.

Concur

Target date for completion: 12/31/14




VA OIG Office of Healthcare Inspections                                                            27
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


Facility response: Patients are being provided a screening form in hard copy. The
patient completes the form and gives to technologist. The technologist then reviews the
form with patient and transcribes the information into the electronic template in CPRS.
The form is then printed and given to the patient for review and signature. Chief
Technologist is performing 100% verification that all screenings are complete and
accurate. The results of this verification process will be reported monthly at the Medical
Executive Board meeting.

Recommendation 15. We recommended that processes be strengthened to ensure
that radiologists and/or Level 2 magnetic resonance imaging personnel document
resolution in patients’ electronic health records of all identified magnetic resonance
imaging contraindications prior to the scan and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: Technologists have been instructed to explain how/why it is safe for
patient to enter the magnet after a positive response to a safety item has been given.
The technologists are to number and list all positive answers in the comments portion of
the electronic questionnaire template.         Chief Technologist is performing 100%
verification that explanations are listed for all positive contraindications. The results of
this verification process will be reported monthly at the Medical Executive Board
meeting.

Recommendation 16. We recommended that processes be strengthened to ensure
that all designated Level 1 ancillary staff receive annual level-specific magnetic
resonance imaging safety training and that compliance be monitored.

Concur

Target date for completion: 12/31/14

Facility response: Imaging Service Manager will complete a random sampling of
ancillary staff to ensure that all required individuals have completed Level I MRI Safety
Training course on TMS. The results of this verification process will be reported
monthly at the Medical Executive Board meeting.

Recommendation 17. We recommended that processes be strengthened to ensure
that construction site inspection documentation includes the time of the inspection, the
team members present, and the time when corrective actions occurred.

Concur

Target date for completion: 12/31/14

Facility response: Revision of the Fayetteville site inspection document was completed
on 9 June 2014. This document has a place to annotate the names of all members that


VA OIG Office of Healthcare Inspections                                                            28
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC


are present during the construction site safety inspections, time of the inspection and
date the corrective action was completed.

Recommendation 18. We recommended that processes be strengthened to ensure
that Construction Safety Committee minutes contain documentation of unsafe
conditions identified during inspections and follow-up actions in response to those
conditions and that minutes track actions to completion.

Concur

Target date for completion: 12/31/14

Facility response: Revision of the Fayetteville Construction Safety minutes was
completed on 9 June 2014. The minutes now include a list of unsafe conditions
(deficiencies) identified by the inspection team. Deficiencies are being tracked until
closed including completion date, responsible person, and corrective actions.




VA OIG Office of Healthcare Inspections                                                            29
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC
                                                                                         Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Toni Woodard, BS, Team Leader
Contributors            Victoria Coates, LICSW/MBA
                        Sheyla Desir, RN,MSN
                        Joanne Wasko, LCSW
                        Robert Lachapelle, Resident Agent, Fayetteville, NC, Office of
                           Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Lesa Gann, RN, LCSW
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Anita Pendleton, AAS
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                            30
                                    CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC
                                                                                         Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Mid-Atlantic Health Care Network (10N6)
Director, Fayetteville VA Medical Center (565/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Burr, Kay R. Hagan
U.S. House of Representatives: Renee Ellmers, David Price


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                            31
                                                CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC
                                                                                                     Appendix G

                                                      Endnotes

a
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
     Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
     Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
     References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
     Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories. 
c
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
d
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
	 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
	 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                           32
                                               CAP Review of the Fayetteville VA Medical Center, Fayetteville, NC



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
   October 4, 2011.
h
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations. 




VA OIG Office of Healthcare Inspections                                                                          33
